 Office of Inspector General
 for the Millennium Challenge Corporation



 September 21, 2011

 Mr. Patrick Fine
 Vice President of Department of Compact Operations
 Millennium Challenge Corporation
 875 Fifteenth Street, NW
 Washington, D.C. 20005

 Management Letter No. M-000-11-002-S

 Dear Mr. Fine:

 This letter, provided as a follow-up to the management comments provided on May 31, 2011,
 transmits the final results regarding our observations of the MCA-Mali road project from Niono to
 Goma-Courra. The primary objectives and results of the review related to government-owned
 enterprises in Mali was sent in a separate report. This letter discusses reportable issues in
 MCA-Mali that were outside the scope of our review. In finalizing the results, we considered
 your written comments on our draft letter and included those comments in their entirety in
 appendix I of this final letter.

 This letter contains four recommendations to address MCC: (1) putting funds to better use, and
 (2) the establishment of a program to identify contractors with known performance problems.
 We consider that management decisions have been reached on all four recommendations and
 final action taken on Recommendation Nos. 1, 2, and 4. Final action will take place on
 Recommendation No. 3 when MCC incorporates past contract performance evaluation criteria
 in the next revision of its Standard Bidding Documents. The following are the final results of our
 review:

 At the time of our fieldwork, MCA-Mali had terminated its contract with the road contractor
 (ASHTROM) because of ASTROM’s lack of timely performance. The 81-km road from Niono to
 Goma-Courra under the Alatona Project was supposed to have been completed by December
 2010. Although more than half of the funding ($18.7 million) of the 24-month, $34.8 million
 contract has been disbursed, the road is far from completion. MCA-Mali communicated its
 concerns about lack of progress to ASHTROM to “remedy failures” by sending unheeded
 “Notices to Correct.” The contractor did not keep pace and made excuses related to equipment
 and other problems. MCA-Mali sent the first termination notice to ASHTROM in December
 2010, around the time the road project should have been completed. The termination letter




Millennium Challenge Corporation
1401 H Street N.W.
Suite 770
Washington, DC 20005
www.usaid.gov/oig
indicated that there had been “18 road accidents including 3 fatal injuries as a result of your
obligations.”

All work under the compact is to be completed by September 2012, leaving about 12 months to
complete this road project; however, the project is currently held up by legal issues. ASHTROM
has taken its case to the Malian court for adjudication, and another contractor will need to be
selected to complete the road.

MCA-Mali received the balance of a $1.3 million advance guarantee and a $3.4 million
performance guarantee that ASHTROM had pledged to secure the mobilization advance
provided by MCA-Mali. MCA-Mali stated that this total $4.7 million had been segregated from
the regular operating funds to avoid commingling and facilitate accountability. Decisions
involving the $3.4 million performance guarantee cannot be made until after the Malian court
hears the appeal made by MCA-Mali and legal issues associated with this funding are resolved.

The Niono to Goma-Courra road project is the link between the farmers along the canal and the
major towns and is a vital element of the compact. ASHTROM had a similar problem
completing a MCC road construction project in Georgia. We understand that in this particular
situation, due to timing, a debarment and suspension program would not have prevented
ASHTROM from receiving an award in Mali. Nevertheless, an effective debarment and
suspension program should reduce the risk of a poorly performing contractor at one MCA from
receiving additional contract awards from other MCAs. This is especially important when
considering high-value construction contracts for which the outcomes have significant impact on
achieving compact goals.

On the basis of the road project’s status at the time of our review, we believe that the returned
mobilization advance ($1.3 million) should be allocated or reprogrammed for use on MCA-Mali
compact activities. We recommended that MCC’s Vice President for Compact Operations:

Recommendation No. 1: Decide how to use the $1.3 million advance guarantee deposited into
MCA-Mali’s bank account and allocate or reprogram these funds to specific project activities
within the compact for better use.

Recommendation No. 2: Establish a plan to monitor the $4.7 million obtained by MCA-Mali
related to the ASHTROM contract for proper funds segregation and to avoid commingling with
regular operating funds, and to facilitate accountability.

Recommendation No. 3: Establish a debarment and suspension program to identify and prevent
certain contractors with known performance problems from bidding on Millennium Challenge
Account program contracts.

Recommendation No. 4: Debar ASHTROM to prevent it from winning any future Millennium
Challenge Account contract awards.




                                               2
With only 12 months remaining before the end of the compact in Mali, the Office of Inspector
General is highlighting the above issues so that MCC and MCA-Mali can take action to ensure
that the compact is successful and that compact funds are used in the best manner possible.

Sincerely,

/s/

Alvin A. Brown
Assistant Inspector General
Millennium Challenge Corporation




cc:    John Mantini, MCC, Assistant General Counsel
       mantinijc@mcc.gov

       Arlene McDonald, MCC, Compliance Officer
       mcdonalda@mcc.gov

       Marti Edmondson, MCC, Regional Senior Director, Fiscal Accountability
       edmondsonmc@mcc.gov

       Mahmoud Bah, MCC, Director, Fiscal Accountability
       bahm@mcc.gov

       Jon Anderson, MCC, Resident Country Director for Mali
       andersonjc@mcc.gov

       Sheryl Cowan, MCC, Deputy Resident Country Director for Mali
       cowanss@mcc.gov




                                             3
EVALUATION OF MANAGEMENT
COMMENTS
On May 31, 2011, MCC provided a formal response to our draft letter (included as Appendix I).
MCC agreed with all four recommendations. We consider that management decisions have
been reached on all four recommendations and final action taken on Recommendation Nos. 1,
2, and 4. Final action will take place on Recommendation No. 3 when MCC incorporates past
contract performance evaluation criteria in the next revision of its Standard Bidding Documents.

MCC agreed with Recommendation No. 1 and indicated that MCA-Mali has already transferred
the $1.3 million mobilization advance guarantee received from Ashtrom into the local permitted
bank account, so it can be used for other compact activities. MCA-Mali informed MCC that the
$1.3 million of funds will primarily be used for the Alatona Irrigation Project. OIG considers that
a management decision has been reached which also constitutes final action.

MCC agreed with Recommendation No. 2 and MCA-Mali put a plan in place to segregate and
monitor the $4.7 million received from Ashtrom. The funds received from Ashtrom were under
litigation, and following the terms of a settlement agreement signed by MCA-Mali and Ashtrom,
MCA-Mali returned the performance guarantee of $3.4 million to Ashtrom. OIG considers that a
management decision has been reached which also constitutes final action.

MCC agreed with the intent of Recommendation No. 3, namely the need to better track
underperforming contractors and utilize records of past performance more effectively as part of
the competitive bidding processes employed by all MCA entities. MCC will institute a process to
collect, share, and utilize contract performance information collected by MCA countries to inform
the evaluation of bids and proposals. MCC will incorporate past performance evaluation criteria
in the next revision of its Standard Bidding Documents, a process that is due to be completed in
October 2011. OIG considers that a management decision has been reached. Final action will
take place on Recommendation No. 3 when MCC incorporates past performance evaluation
criteria in the next revision of its Standard Bidding Documents.

MCC agreed with the intent of Recommendation No. 4. However, MCC currently does not
have its own debarment and suspension procedure. MCC also pointed out that debarring
Ashtrom may or may not be appropriate as the issue at hand pertains to poor performance and
not fraud, corruption, and/or any criminal violation. OIG considers that a management decision
has been reached which also constitutes final action.




                                                4
                                                                                     APPENDIX I

MANAGEMENT COMMENTS

MANAGEMENT COMMENTS
DATE:          May 31, 2011

TO:            Mr. Alvin Brown, Assistant Inspector General
               U.S. Agency for International Development
                       /s/
FROM:          Patrick C. Fine, Vice President
               Department of Compact Operations
               Millennium Challenge Corporation

RE:            Follow-up Letter on the MCA-Mali Niono-Goma Coura Road Activity dated
               May 11, 2011


Dear Mr. Brown:

Thank you for your letter dated May 11, 2011 with the Office of the Inspector General’s (OIG’s)
observations and recommendations concerning the MCA-Mali Niono-Goma Coura Road
Activity. Since the OIG conducted its review in Mali, Millennium Challenge Account (MCA)
Mali and MCC have made a great deal of progress in resolving the outstanding issues related to
the termination of MCA-Mali’s contract with Ashtrom for the construction of the Niono-Goma
Coura Road. On April 10, 2011, MCA-Mali and Ashtrom signed a settlement agreement
amicably putting an end to all disputes related to the contract and confirming that there would be
no future claims. MCC’s responses to the OIG’s recommendations on the Niono-Goma Coura
Road Activity are provided below.

Recommendation 1:

Decide how to use the $1.3 million advance guarantee deposited into MCA-Mali’s bank account
and allocate or reprogram these funds to specific project activities within the compact for better
use.

MCC Response:

MCC agrees with the recommendation. MCA-Mali has transferred the $1.3 million mobilization
advance guarantee received from Ashtrom into the local Permitted Account. The funds were
adequately reported to MCC and were reflected in MCA-Mali’s Disbursement Request for
quarter 15 (Q-15) covering the period from April 1, 2011 to June 30, 2011. The Q-15 cash and
commitment forecast indicated that MCA-Mali would disburse the entire amount of the


                                                5
mobilization advance guarantee by the end of the current period; MCA-Mali also informed MCC
that these funds are primarily being used for the Alatona Irrigation Project. MCC is in
agreement with these actions and considers this to be notification of management decision and
final action.

Recommendation 2:

Establish a plan to monitor the $4.7 million obtained by MCA-Mali related to the Ashtrom
contract for proper funds segregation and to avoid commingling with regular operating funds,
and to facilitate accountability.

MCC Response:

MCC agrees with the recommendation. A plan was put in place by MCA-Mali in order to
segregate and monitor the $4.7 million received from Ashtrom. The funds received from
Ashtrom were under litigation, and following the terms of the settlement agreement signed by
MCA-Mali and Ashtrom, MCA-Mali returned the performance guarantee of $3.4 million to
Ashtrom. The $1.3 million mobilization advance guarantee was retained by MCA-Mali, and as
stated in our update to Recommendation 1 above, will be used to fund activities related to the
Alatona Irrigation Project in the period extending from April 1, 2011 to June 30, 2011. MCC
considers this to be notification of management decision and final action.

Recommendation 3:

Establish a debarment and suspension program to identify and prevent certain contractors with
known performance problems from bidding on Millennium Challenge Account program
contracts.

MCC Response:

MCC agrees with the intent of this recommendation, namely the need to better track
underperforming contractors and utilize records of poor past performance more effectively as
part of the competitive bidding processes employed by all MCA entities. While MCC’s Program
Procurement Guidelines already exclude certain persons and entities such as those debarred or
suspended by The World Bank or from procurements funded by other entities of the U.S.
Government, MCC has formed a working group to explore additional measures that can be taken
to respond to poor contractor performance.

In most donor procurement processes, “debarment” generally is reserved for cases involving
corrupt or fraudulent practices or criminal violations, but is not generally used in cases of
contractor underperformance. Although the Federal Acquisition Regulation (FAR) is not
applicable to MCA procurements, it is worth noting that, while the FAR provides for the
possibility of debarment for “a history of failure to perform”, simply having a contract
terminated for the default of the contractor is seldom sufficient to warrant debarment. In
contrast, past performance typically is considered as one of a number of criteria used to evaluate
a bid or proposal.


                                                6
As management decision MCC will institute a process to collect, share, and utilize contract
performance information collected by MCA countries to inform the evaluation of bids and
proposals. MCC will incorporate past performance evaluation criteria in the next revision of our
Standard Bidding Documents, a process that is currently underway and is due to be completed in
October 2011.

Recommendation 4:

Debar Ashtrom to prevent it from winning any future Millennium Challenge Account contract
awards.

MCC Response:

MCC agrees with the intent of this recommendation. Please refer to MCC’s response to
Recommendation 3 above. MCC does not currently have its own debarment and suspension
procedure; however, MCC does require MCAs to verify that prospective contractors are not
included on a list of companies debarred by the World Bank or other USG entities. Also, as per
our response to Recommendation 3, Ashtrom debarment may or may not be appropriate as the
issue at hand pertains to poor performance and not fraud, corruption, and/or any criminal
violation. Finally, upon issuing revised Standard Bidding Documents, MCC will require MCA
entities to consider appropriate past performance information as part of their evaluation of bids
or proposals received by participants. This will ensure information on Ashtrom’s failure to
perform in Mali and Georgia is considered in any future procurement on which they bid.

Thank you for bringing these important findings to MCC’s attention. Please let me know if you
have any follow-up questions or comments.




cc:    Jonathan Bloom, Deputy Vice President, Department of Compact Operations
       Jon Anderson, Resident Country Director, Mali
       Sheryl Cowan, Deputy Resident Country Director, Mali
       Arlene MacDonald, MCC Compliance Officer



                                                7
